    State of California's Administration of
the Fire Management Assistance Grant Program
              for the Canyon Fire
                                                                                Offce of Inspector General
                                                                                Offce of Emergency Management Oversight

                                                                                u.s. Department or     Homeland Security
                                                                                300 Frank H. Ogawa Plaza, Ste. 275
                                                                                Oakland, California 94612




                                                                 (8
                                                                 .t~~Hom~land

                                                                      Security
                                              September 22, 2008

                                                   Preface

The u.S. Department of 
  Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audits, inspections, and special
reports published as part of our oversight responsibilities to promote economy, effectiveness,
and  efficiency within the department.

The attached report presents the results of       the audit of   the State of      Cali   fomi   a's
Administration of 
         the Fire Management Assistance Grant Program awarded by the Federal
Emergency Management Agency for the Canyon Fire. We contracted with the independent
public accounting finn of Brown & Company CP As, PLLC to perform the audit. The
contract required that Brown & Company CP As, PLLC perform its audit according to
generally accepted government auditing standards and guidance from the Robert T. Stafford
Disaster Relief and Emergency Assistance Act, Title 44 of the Code of Federal Regulations,
and the Offce of 
         Management and Budget. Brown & Company CPAs, PLLC reported four
areas in which the State of California's administration of 
    the Fire Management Assistance
Grant Program could be improved. The report contains eight recommendations addressed to
the Regional Administrator, Federal Emergency Management Agency Region IX.

Brown & Company CP As, PLLC is responsible for the attached auditor's report dated
August 29, 2008, and the conclusions expressed in the report. The recommendations herein
have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.



                                                      QJ~. c1ác~.

                                                     Robert J. dlstrico
                                                     Western Regional Director
oc                                         BROWN & COMPAN CPAs, PLLC
                            CERTIFIED PUBLIC ACCOUNTANTS AN MANAGl~MENT CONSULTANTS
                                                                                                         ._-~
August 29, 2008

Western Regional Director
Office of 
   Emergency Management Oversight
Office ofInspector General
U.S.. Department of 
          Homeland Security
300 Frank H. Ogawa Plaza, Ste. 275
Oakland, California 94612


Brown & Company CPAs, PLLC performed an audit of             the State of               the
                                                                            California's management of

Federal Emergency Management Agency's funds awarded under the Fire Management Assistance
Grant Program. The audit was performed in accordance with our Task Order TPD-ARC-BP A-08­
000 I dated 11/27/2007.

This report presents the results of the audit and includes recommenclations to help improve
management of 
 the audited Fire Management Assistance Grant Program.

Our audit was conducted in accordance with applicable Government Auditing Standards, July 2007
revision. Although the audit report comments on costs claimed by the State of California, we did
not perform a financial audit, the purpose of 
 which would be to render an opinion on the State of
Califomia's financial statemcnts or the funds claimed in thc financial status reports submitted to the
Federal Emergency Management Agency.

We appreciate the opportunity to have conducted this audit. Should you have any questions, or if we
can be of further assistance, please call me on (240) 492- i 403.


Sincerely,

Brown & Company CP As, PLLC


¿¡~~
Gail H. Jenifer, CPA, CISA, CGFM
Membcr
                                                                                                                                                           I
Table of Contents/Abbreviations                                                                                                                            fl
                                                                                                                                                           ¡,
                                                                                                                                                           i

                                                                                                                                                           i



 Executive Summary.... ...... .......... .... ........ ........ .... ,.................. .................... .........,...... .............. ... ... i


 Background................................................................................... .................................... ..............2


 Results of Audit.. ........................................ ............................................................................. .......3


      Cost Reimbursement Agreement Payment.......... ....... ........... .... ............. ........ ............. .... ....... ...3

      Supporting Documentation for Expenditures........ ......... ............ ;.. ....... .... ....... ..,.. ..... .................4

      Project Worksheet Supporting Documentation...... ........... ...... ..... ....... ......... ... ........... ........ ..... ...5

      Compliance with FMAG ProhTfam Requirements ...................................................................... 8


 Appendices

      Appendix A: Objectives, Scope, and Methodology.................................................................9


 Abbreviations

     BIA                                      Bureau ofIndian Affairs

     BLM                                      Bureau of Land Management

      CALF     IRE                            California Department of Forestry and Fire Protection

                                                                                                                                                           : :

     CALFIRE/Riverside                        Riverside County Fire Department
     DHS                                      U.S. Department ofHomcland Security

     FEMA                                     Federal Emergency Management Agency

     FMAG                                     Fire Management Assistance Grant

     GAR                                      Governor's Authorized Representative
                                                                        ¡ i

                                                                                                                                                           I

     OES                                      Offce of Emergency Services
     OIG                                      Office of Inspector General

     PW                                      Project Worksheet

     USFS                                    u.S. Forest Service

                                                                                                       I

                                                                                                        J

Executive Summary
                                                                                                       :1
              Brown & Company ePAs, PLLC audited the State of 
           California's (the state's)    j
              administration of 
        the Fire Management Assistance Grant (FMAG) Program
              for the Canyon Fire (FMAG Declaration 2487). The objective of 
              the audit
              was to determine whether the state administered the FMAG Program in an
              effcient and effective manner. To accomplish the objective, we considered
              the overall impact of material deficiencies on grant program administration.
              Specifically, we determined how well the state (1) coordinated and
              communicated with Federal Emergency Management Agency (FEMA) and
              sub  grant applieants, (2) ensured compliance with federal laws and FEMA
              guidelines, and (3) accounted for and expended FMAG Progran1 funds. See
              Appendix A for additional details on the objective~, scope, and methodology
              of  this audit.

              On July 25,2003, FEMA Region ix awarded $2,760,056 under FMAG
              Declaration 2487 to the State of 
 California Governor's Office of 
 Emergency
              Services (OES). FEMA programmatically closed this declaration on
              August i 6, 2004. OES submitted the final financial status report and
              requested closure of 
 the FMAG on April 23, 2008. Although the audit scope
              included a review of costs reimbursed under the grant, a financial audit of
              those costs was not performed. Accordingly, we do not express an opinion on
              the state's financial statements or the funds claimed in the financial status
              reports submitted to FEMA.

              OES administered the FMAG Program effectively and efficiently, but did not
              always comply with federal laws and FEMA guidelines. Specifically,OES:
              (I) allowed a duplicate recovery of assistance for $515,430 by a subgrantee;
              (2) reimbursed $30, i 80 in expenditures that were not properly supported;
              (3) did not cOlTectly calculate some employee overtime and equipment usage
             rates; and (4) did not submit the final financial status report in a timely
             manner.

             We recommend that the Regional Administrator, FEMA Region ix: (I) seek
             reimbursement of $5 i 5, 430 for the recovery of duplicate costs; (:l) disallow
             $30, i 80 in unsupported costs; (3) require the state to improve the procedures
             for the preparation, review, and submission of 
 Project Worksheets to ensure
             that all costs are correctly calculated and supported; and (4) require the state
             to comply with the reporting requirements for grant close-out.

             We held exit conferences with FEMA Region ix and OES on April 24, 2008.
             FEMA and OES concurred \-vith our findings and recommendations.




 State of California's Administration of the Fire :Vlanagement Assistance Grant l'rogram
                                    for the Canyon Fire

                                                   Page I
Background
                        The Robert T. Stafford Disaster Relief and Emergency Assistance Act,
                        (Stafford Act), signed into law November 23, 1988, authorizes the President
                        to provide federal funds to state and local governments under the FMAG
                        Program for mitigation, management, and control of any fire burning on public
                        or private forestland or grassland. The FMAG Program replaced the Fire
                        Suppression Assistance Program on October 30, 200 i. Title 44, Code of
                        Federal Regulations (44 CFR), Part 204 provides the procedures for the
                        declaration and grants management processes for the FMAG Program and
                        details applicant eligibility and the eligibility of costs to be considered under
                        the program.

                        Declaration Process



                       A declaration request must be submitted while a fire is burning uncontrolled
                       and threatens such destruction as would constitute a major disaster. The
                       Governor or the Governor's Authorized Representative (GAR) is authorized to
                       submit requests to the FEMA Regional Administrator or Regional Fire Duty
                       Liaison for fire management declarations. Due to the magnitude and impact of
                       a fire, the Governor or GAR can expedite the process 

                                                                              by verbally requesting
                       the declaration but must follow-up promptly after the date of an initial
                       telephone request with all offcial forms and written information.



                       Upon declaration approval by FEMA, the Governor or GAR will enter into a
                      standing FEMA/State Agreement (the Agreement) for the declared fire and for
                      future declared fires in that calendar year. The state must have a current and
                      signed Agreement before receiving federal funding under the FMAG
                      Program. The Agreement states the understandings, commitments, and
                      conditions under which FEMA wil provide federal assistance, including the
                      75% federal and 25% non-federal cost share provision and articles of agreement
                      necessary for the administration of the grants. The Agreement must identify
                      the state legislative authority for firefighting, as well as the state's compliance
                      with the laws, regulations, and other provisions applicable to the FMAG
                      Program.

                      Grant Application and Reimbursement Process

                      Following a declaration, the state is required to submit a grant application
                      package to the FEMA Regional Administrator within 9 months of 
      the
                      declaration. The Regional Administrator may grant an extension of 

                                                                                                        up to
                      3 months upon receipt of a written request from the state that includes the
                      justification for an extension. The grantee must document the total eligible
                      costs for a declared fire on Project Worksheets (PW), which are submitted
                      with the grant application. The Regional Administrator has 45 days from the


     State of California's Administration of 
           the Fire Management Assistance Grant Program
                                                   for the Canyon Fire

                                                            Page 2

                   receipt of the state's initial grant application, or an amendment to the state's
                   grant application, to approve or deny the application package or amendment,
                   or to notify the state of a delay.

                   By submitting PWs, the grantee certifies that all reported costs were incurred
                   for work that was performed in compliance with laws, federal regulations and
                   FMAG Program policy and guidance, as well as the terms and conditions
                   outlined in the FMAG Program FEMA/State Agreement. Upon approval of
                   the grant application, FEMA obligates funds after determining that: (l) the
                   state's eligible costs meet or exceed the individual or cumulative fìre cost
                                                                Administrative and Hazard
                   thresholds; and (2) the state has up-to-date State.

                   Mitigation Plans approved by the Regional Administrator.

                   Subgrantee requests for FMAG Program funding are submitted on a Request
                   for Fire Management Assistance Subgrant (FEMA Form 90-133) to the grantee
                   according to state procedures and within timelines set by the grantee. This
                   request must be submitted not longer than 30 days after the close of the
                   incident period. The grantee will review and forward the request to the
                   Regional Administrator for final review and deteiinination.


Results of Audit
                   OES administered the FMAG Program in an efficient and effective manner
                   and properly coordinated and communicated with FEMA and sub 

                                                                                    grantees.
                   However, OES received a duplicate benefit of $5 I 5,430 and had $30, I 80 in
                   expenditures that were not properly supported. In addition, OES did not
                   always comply with federal Jaws and FEMA guidelines. The following
                   exceptions were noted.

   Cost Reimbursement Agreement Payment
                   FEMA's reimbursement to OES included a duplicate payment of $5 i 5,430.
                   Specifically, OES reimbursed California Department of 
     Forestry and Fire
                   Protection (CALFIRE) for fire suppression benefits that were also received
                   under the terms of a cost-reimbursement agreement. According to 44 CFR
                  204.62(a), FEMA provides supplementary assistance which generally may not
                  duplicate benefits by the applicant from other programs. An applicant must
                  notify FEMA of all benefits received or anticipated from other sources for the
                  same purpose. The FMAG grant is to be reduced by the amount available for
                  the same purpose from other sources.

                  CALFIRE personnel told us that CALFlRE entered into a cost-reimbursement
                  agreement with the U.S. Forest Service (USFS), the Bureau of               Land
                  Management (BLM), and the U.S. Department of                 the Interior's Bureau of
                  Indian Affairs (BIA) for the Canyon Fire incident. Neither FEMA Region ix

       State of California's Administration of the Fire Management Assistancr Grant Program
                                          for the Canyon Fire

                                                        . Page 3
                                                                                                i
              nor OES was aware ofthe cost reimbursement agreement. Under the ters of
         II

              the agreement, CALFIRE received $870,290 ($ 18 i, 157 from USFS and BLM
                                                                                               Ii
              and $689,133 from BIA) for the reimbursement of     total costs incurred.        I;
              CALFIRE personnel said that they also claimed the federal share of the total
              cost for reimbursement under the FMAG Program. CALFIRE determined
              that when the total costs of$870,290 are adjusted for personnel costs at
              straight time and for agency administrative time, the amount due FEMA for
              duplicate benefits received is $515,430 for the federal share.

    Recommendations
              We recommend that the Regional Administrator, FEMA Region ix, require
              that OES:

              Recommendation #1. Reimburse FEMA $515,430 for the duplicate costs
              reimbursed to CALFlRE under the USFS, BLM, and BIA reimbursement
              agreement and under the FMAG award.

              Recommendation #2. Develop and implement procedures to ensure that
              sub grantees identify all actual and anticipated agreements that provide
              benefits for the same purpose as the FMAG.

    Management Comments

              FEMA Region ix and OES officials concurred with the finding during our
              exit briefing. FEMA officials said an adjustment PW will be processed for the
              duplicate funding even though this declaration is in the process of 
 being
              closed. In addition, PWs for subgrantees that are parties to Agreements will
              have a note about the likely need to adjust funding in the future to avoid
              duplicate payments. The note will be inserted into a calendar as a reminder to
              follow up.



              During fieldwork exit conferences, OES verbally agreed to discuss the
              reimbursement of the FMAG funds with CALFIRE. OES plans to develop
              and implement procedures requiring subgrantees to identify all actual and
              anticipated agreements that provide benefits for the same purpose as the
              FMAG.

Supporting Documentation for Expenditures
             OES reimbursed CALFIRE for costs that were not properly supported.
             Specifically, CALFIRE accepted invoices from other local agencies that did
             not describe the equipment or labor category being invoiced or clearly
             describe the services provided. The local agencies only provided rates and
             hours. The total cost claimed and reimbursed on these invoices was S30, i 80.

  State of California's Administration of the Fire Management Assistance Grant Program

                                     for the Canyon Fire


                                                    I'age 4

                           According to 44 CFR, Part 204, the PW identifies and reports the actual costs
                           incurred by eligible applicants. Section 204.53(a) states that by submitting the
                           subgrantee's PW, OES is certifying that all costs reported were incurred for
                           work performed in compliance with applicable laws, regulations, policy and
                           guidance. Without having the detail to support the invoice total, the
                           allowability of the cost and the accuracy of the invoice cannot. be detennined.


                  Recommendation
                           We recommend that the FEMA Regional Administrator, Region IX:

                           Recommendation #3. Disallow the unsupported costs totaling $30,180 and
                           require the OES to comply with FEMA regulations regarding support for
                           eligible costs.




                  Management Comments

                           FEMA Region LX, OES, and CALFIRE officials concurred with the finding
                           during our exit briefings. FEMA officials said that in addition to the
                           adjustment to the CALFIRE PW for the duplicate funding, an additional
                           adjustment will be made for the unsupported costs.

         Project Worksheet Supporting Documentation

                           OES needs to accurately review supporting documentation to ensure that only
                           actual costs incurred are claimed. According t044 CFR 204.3, the PW
                           identifies the actual costs incurred by eligible applicants as a result of the
                           eligible firefighting activities. Details of those instances where the PW
                           submitted by OES did not represent actual costs incurred are presented below:

                           · CALFIRE used the incorrect Agreement for Local Government Fire
                              Suppression Rate Letter when determining the reimbursement support for
                              equipment. The May i, 2002 rate letter was erroneously used rather than
                              the April 3, 2003 rate letter. The net effect was an immaterial overcharge
                              of $84 claimed for reimbursement.

                           · CALF 
 IRE overcharged the grant for overtime costs totaling $) 8,399.
                                CALFlRE reviewed the reimbursement rate structure for personnel costs
                                in December 2006 to make it more accurate. Changes in components of
                                the rate resulted in a change in the reimbursement rate! for categories
                                charged, with some category costs increasing and others decreasing. The

i We did not audit the rate development process.

             State of Califomia's Administration of the Fire J\lanagement Assistance Grant Program
                                               for the Canyon Fire

                                                     Page 5

                                                                                                 I
                                                                                                 ii
                difference of $ I 8,399 represented the net difference between the old and       Ii

                new rates. .
                                                                    'I
                                                                                                 !i

                                                                                                 :'1
                                                                                                   ,¡

                CALFIRE also applied the new rates to all FMAG incidents for the period           .,


                FY 200 I -2005. According to their calculations, the application of the new
                rate results in an under-billing on the PWs of$23 1,979. The state is not

                                                                                                  ;

                pursing this amount.                                                               .~
                                                                                                 ,',



            · The overtime labor rates claimed for CALFIRE personnel are category
                averages and not the actual overtime rate paid the employee. While the
                individual employees received correct overtime payments, their hours may
                be either over-claimed or under-claimed for reimbursement on the PW as
                a result of 
 using category averages. CALFIRE officials said that its
                system does not have the capability to handle the different labor rates for
                the number of personnel at a declared fire and consequently, CALF   IRE
                decided to use the average rates for reimbursement purposes. Therefore,
                costs claimed were not consistent with pay rates and did not represent
                actual personnel costs incurred.

            · CALFIRE/Riverside incorrectly recorded personnel time for
               reimbursement in 4 of 14 records tested. The equipment hourly rates
               charged to the FMAG did not agree with the supporting activity records in
                3 of 48 records tested. This was a result of not properly reviewing the
                supporting documentation for the claimed costs. Additionally, the
                overtime amounts for personnel costs charged to the FMAG were
                incolTectIy calculated inasmuch as fringe benefit amounts were
                erroneously included in the computation. CALFIRE/Riverside did not
                provide the basis for the overtime fringe benefit calculation.

                CALFIRE/Riverside explained to the auditor that it did not prepare the
                FEMA Applicant's Benefit Calculation Worksheet (Form 90-128) during
                the period of 
      the FMAG Canyon Fire and therefore, was unable to provide
                the basis for the overtime fringe benefit calculation. Because we did not
                have the basis for the overtime fringe benefit calculation, we were unable
                to verify that the correct fringe benefit overtime rate was used in the
                calculation of the claim for reimbursement. However, according to
                44 CFR 204.3, the PW identifies the actual costs incurred by eligible
                applicants as a result of 
  the eligible fire fighting activities. The PW
                submitted did not reflect the actual costs incurred.

   Recommendations
           We recommend that the Regional Administrator, FEMA Region IX:




State of California's Administration of the Fire Management Assistance Grant Program
                                   for the Canyon Fire

                                                Page 6

            Recommendation #4. Require OES to perform an adequate review of
            expenditures submitted for reimbursement to ensure that all costs are properly
            supported.

            Recommendation #5. Determine an appropriate disposition of the $ 1 8,399
            overcharged to the grant as a result of changing the reimbursement rate
            structure for personnel costs.

            Recommendation #6. Validate that CALFIRE's use of category averages in

            calculating the reimbursement of overtime rates is a reasonable method of

            claiming these costs, and if appropriate, approve use of category averages for        I.

            use in future FMAG awards.


            Recommendation #7. Require OES to ensure that FMAG subgrantees
            perform adequate reviews of expenditures submitted by assisting firefighting
            organizations (in this case, Riverside County Fire Department) to ensure that
            all costs are properly documented and supported.

    Management Comments

            FEMA Region ix, OES, and CALFIRE officials concurred with the finding.                ;~

            FEMA Region ix personnel provided the following comments:

            · Recommendations # 4 and 7: These recommendations will require that

                OES include stronger language in the applicant briefings about the need

                for proper cost documentation and support from both the subgrantees and

               organizations that support the subgrantees.


            · Recommendation # 5: The denial of 
    under billed labor costs for other
                 CALFIRE FMAG Programs claims which exceed the amount over
                 charged on the Canyon Fire will address this recommendation.

            · Recommendation # 6: The use by CALFIRE of average labor rates affects
               the Public Assistance Program as well as FMAG Program. FEMA
                 Region ix will require a sampling of 
       the claims under both programs to
                 determine if there are consistent overcharges relative to actual labor cost.

            During fieldwork exit conferences, CALFIRE verbally agreed to discuss the
            disposition of 
 the calculated overcharge in personnel reimbursement costs,
            and the use of category averages in calculating the overtime rates with FEMA
            Region ix.




State of California's Administration of the Fire Management Assistance Grant Program
                                   for the Canyon Fire

                                                    Page 7

                                                                                                'i

                                                                                               1'1
                                                                                               :¡
                                                                                                 i
                                                                                               ,1
                                                                                               ,:1

                                                                                               H
                                                                                               :1


Compliance with FMAG Program Requirements                                                      ¡j




              OES needs to fully comply with the required procedures for the grants
              management processes described in 44 CFR. OES did not submit a final
              financial status report (FEMA Form 20- I 0) within 90 days of the performance
              period expiration date as required under 44 CFR 204.64 (a). Grantees and
              subgrantees report all costs incurred within the incident period and all
              administrative costs incurred within the performance period on the form. The
              performance period is defined in 44 CFR 204.3 as the time interval designated
              in block i 3 on the Application for Federal Assistance (Standard Form 424) for
              the grantee and subgrantees to submit eligible costs and have those costs
              processed, obligated, and closed-out by FEMA.

              FEMA granted OES an initial extension ofperfoimance period to July 25,
              2004 and then granted an additional 6-month extension. However, OES did
              not submit the final financial status report and request closure of the FMAG
              until April 23, 2008. The FEMA Region ix Public Assistance Coordinator
              said that although the grant was still open for this period, no additional PWs
              were accepted.

      Recommendation
              We recommend that the Regional Administrator, FEMA Region ix:

              Recommendation #8. Require the OES to comply with the financial status
              reporting requirements described in the regulations.

      Management Comments

              FEMA Region ix and OES offcials concurred with the finding. FEMA
              officials said they are inserting a 90-day closeout statement in all final
              programmatic obligation notifications to OES.




  State of California's Administration of the Fire Management Assistance Grant Program
                                  for the Canyon Fire.

                                         Page 8

                                                                                                                       11
 Appendix A	
 Objectives, Scope, and Methodology                                                                                    iJ




                                                                                                                       :1
                          Objectives	
                                                                                                                           j
                                       the audit was to determine whether the state administered the
                          The objective of

                          FMAG Program in an efficient and effective manner. To accomplish the
                                                                                                                       i
                          objective, we considered the overall impact of material deficiencies on grant	
                                                                                                                       I:
                          program administration. Specifically, we determined how well the state	
                          (I) coordinated and communicated with FEMA and subgrant applicants,                          I:
                                                                                                                       i:
                          (2) ensured compliance with federal laws and FEMA guidelines, and	                           I:

                          (3) accounted for and expended FMAG Program funds.	                                          11
                                                                                                                       ,.
                                                                                                                       iì
                                                                                                                       !I
                                                                                                                       i!
                          We were not engaged to and did not perform a financial statement audit, the	                 i;
                          objective of       which would be to express an opinion on specified elements,               ¡
                                                                                                                       I;
                          accounts, or items. Accordingly, we were neither required to nor expressed an
                          opinion on the costs claimed for the grant programs included in the scope of                 (1
                                                                                                                       i:
                          the audit. Had we been required and performed additional procedures or                       r. ~
                                                                                                                       r..:
                          conducted an audit of 
    the financial statements according to generally accepted          ,.
                                                                                                                       .,
                          auditing standards, other matters might have come to our attention that would                ri
                                                                                                                       I:
                          have been reported. This report relates only to the programs specified and	                  I:
                          does not extend to any financial statements ofthe state.                                     I


                                                                                                                       I

                          Scope                                                                                        i

                                                                                                                       i;
                         We audited the Fire Management Assistance Grant that was awarded by
                         FEMA to the state on July 25,2003. The grant, totaling $2,760,056, was
                         programmatically closed on August 16, 2004.2 OES submitted the final
                         financial status report and requested closure of 
     the FMAG on April 23,2008.
                         This FEMA grant award was selected for review because the award was                           ¡.
                                                                                                                       I
                         significantly higher than other fire declarations within the same FEMA
                         Region. OES administered the FMAG Program. OES' subgrantees included:
                         Department of 
        Forestry and Fire Protection (CALFIRE), California Highway
                         Patrol, and Riverside County Fire Department (CALFIRE/Riverside).

                         Methodology

                         We performed fieldwork at FEMA Region ix, OES, CALFIRE, the California
                         Highway Patrol, and CALFIRE/Riverside. To obtain an understanding of 
                  the
                         grant procedures, we reviewed FEMA regulations, the Stafford Act as
                         amended, pertinent sections of                  Title 44 of 
    the CFR, and Office of
                         Management and Budget Circular /\-87, Cost Principlesror State, Local, and
                         Indian Tribal Governments.

                         To achieve the objective of this audit, we:



2 FMAG Programs are considered programmatically closed if all work has been completed and final costs submitted to
FEMA have been obligated.

            Statl. or Caliornia's Administration or the Firl. Management Assistancl. Grant Program

                                               for the Canyon Fire


                                                      Page 9

Appendix A
Objectives, Scope, and Methodology

                      1) Interviewed FEMA, state, and subgrantee personnel to obtain an                    l

                          understanding of policies and procedures followed and to identify

                          potential internal control weaknesses and their causes;

                                                                                                           II
                                                                                                           i~
                                                                                                           i,
                      2) Reviewed grant files to determine whether sufficient documentation was            i";
                          present to support proper administration of the grant;                           ;1
                                                                                                             i




                      3) Reviewed the state's internal controls over accounting for grants to ensure

                          that the State properly recorded and reported grant expenditures;


                      4) Reviewed a statistical sample of project worksheets to deteimine whether
                          grant monies were spent according to laws and regulations. We used
                          appropriate formulas to develop a variable sampling approach coupled
                          with the risk model promulgated by the American Institute of Certified
                          Public Accountants.

                      5) Reviewed prior audit reports to determine whether deficiencies had been
                          noted in the reports with respect to the state's administration of 
 the FMAG

                          Program or internal controls over grant fund accounting.


                     We conducted a performance audit by executing tests, conducting interviews,
                     making observations, and examining documentation in the following areas:

                     i. Applicant Eligibility

                     2. Cost Eligibility

                     3. Procurement

                     4. Grantee's Accounting System and Internal Controls

                     5. Project Worksheet Review

                     6. Grant Reporting


                     We conducted our audit between during the periods February 25-29,
                     March 1 0-12, April 7- I 1,2008 and April 16-24,2008, and performed our
                     work according to the Government Auditing Standards prescribed by the
                     Comptroller General of 
   the United States (July 2007 Revision).




         State of California's Administration of the Fire Management Assistaii'e Grant Program
                                            for the Canyon Fire

                                                Page i 0
                                                                                                  ~
                                                                                                 ::¡




                                                                                                 I':

                                                                                                 ¡
                                                                                                 ¡
                                                                                                 i:
                                                                                                 I:
                                                                                                 L
                                                                                                 I.
                                                                                                 ì:



Additional Information and Copies
To obtain additional copies of 
    this report, call the Office of Inspector General (OIG) at
(202) 254-4 I 99, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotlne


To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

      · Call our Hotlíne at l -800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292;

      · Email us at DHSOIGHOTLINE~dhs.gov; or

      · Write to us at:

                DHS Office of Inspector General/MAIL STOP 2600, Attention:
                Office of Investigations - Hotline, 245 Murray Diive, SW, Bullding 4 I 0,
                Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
